C@OQCKLE

Brie fs E-Mail Address:
be Ba I contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-793
INSTITUTE FOR FREE SPEECH,
PETITIONER,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
RESPONDENT.
AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 28th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE LIBERTY JUSTICE CENTER AS AMICUS
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Daniel R. Suhr
Counsel of Record
Jetfrey M. Schwab
LIBERTY JUSTICE CENTER.
190 LaSalle St., Ste. 1500
Chicago, IL 60603
(312) 263-7668
dsuhr@libertyjusticecenter.org

Subscribed and sworn to before me this 28th day of February, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

Hy Comm. Exp. Soptamber 6, 2023

 

GENERAL HOTARY-State of Nebraska
A RENEE J. GOSS Kone. Q. thea? Odea W- Chk

Notary Public 7 Affiant 39524

 
Attorneys for Petitioner:

Allen Joseph Dickerson
Counsel of Record

Institute for Free Speech

124 S. West Street

Suite 201

Alexandria, VA 22314

703-894-6846

adickerson@ifs.org

Party name: Institute for Free Speech
Attorneys for Respondent:

Aimee Athena Feinberg

Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
916-210-6003
Aimee.Feinberg@doj.ca.gov

Party name: Xavier Becerra, Attorney General of California
